      Department of Homeland Security





            Transportation Security Administration’s 

                    Use of Backscatter Units 





OIG-12-38                                        February 2012

                                                            Office a/Inspector General

                                                            U.S. Deparhuent of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                                                            Security
                                        February 14, 2012


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report addresses the strengths and weaknesses of the Transportation Security Administration's
use of backscatter units. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

Thc recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implenlentation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.

                                  C~~(-~
                                   Carlton I. Mann
                                      Assistant Inspector General for Inspections
Table of Contents/Abbreviations 

Executive Summary .........................................................................................................................1


Background ......................................................................................................................................2


Results of Review ............................................................................................................................5


     Independent Surveys Conducted Prior to Deployment Conclude That 

     Backscatter Radiation Levels Are Below Established Limits ...................................................5 


     TSA Complied With ANSI Radiation Safety Survey Requirements.........................................8 

     Recommendation .....................................................................................................................11

     Management Comments and OIG Analysis ............................................................................12 


     Radiation Surveys and Studies Conducted After Deployment Conclude That

     Levels Are Within Established Limits .....................................................................................12 


     Backscatter Calibrations Have Not Been Performed Consistently..........................................14 

     Recommendation .....................................................................................................................14

     Management Comments and OIG Analysis ............................................................................15 


     Not All Transportation Security Officers Have Completed Required 

     Radiation Safety Training ........................................................................................................15

     Recommendations ...................................................................................................................16

     Management Comments and OIG Analysis ............................................................................16 


     Additional On-the-Job Training for Transportation Security Officers 

     Should Be Considered..............................................................................................................17

     Recommendation .....................................................................................................................18

     Management Comments and OIG Analysis ............................................................................18 


     Accidental Radiation Overdoses Have Not Occurred .............................................................19 

     Recommendation .....................................................................................................................19

     Management Comments and OIG Analysis ............................................................................20 


Appendices
     Appendix A:            Purpose, Scope, and Methodology...................................................................21 

     Appendix B:            Management Comments to the Draft Report ...................................................22 

     Appendix C:            Major Contributors to this Report....................................................................26 

     Appendix D:            Report Distribution ..........................................................................................27 

Abbreviations
  AIT           Advanced Imaging Technology
  ANSI          American National Standards Institute
  APL           Applied Physics Laboratory
  CDRH          Center for Devices and Radiological Health
  DHS           Department of Homeland Security
  FDA           Food and Drug Administration
  HPS           Health Physics Society
  JHU           Johns Hopkins University
  mrem          millirem
  NIST          National Institute of Standards and Technology
  OIG           Office of Inspector General
  OJT           on-the-job training
  OLC           Online Learning Center
  OSHE          Office of Occupational Safety, Health and Environment
  RSO           Radiation Safety Office
  S&T           Science and Technology
  SAT           Site Acceptance Test
  TSA           Transportation Security Administration
  TSO           Transportation Security Officer
  µrem          microrem
  USAPHC        U.S. Army Public Health Command
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Transportation Security Administration is responsible for screening
                passengers at commercial airports. One method of securing the traveling
                public is through the use of Advanced Imaging Technology to detect a
                wide range of metallic and nonmetallic threats, including weapons and
                explosives. The general-use backscatter unit is a type of imaging
                technology that delivers an extremely low dose of ionizing radiation to the
                person being screened. These units create an image from very small
                amounts of x-ray that reflect off the person being screened.

                The Transportation Security Administration began deploying general-use
                backscatter units in March 2010, with 247 units currently operating in 39
                commercial airports around the country. Advanced Imaging Technology
                equipment used by the agency must conform to requirements established
                by the Health Physics Society and accredited by the American National
                Standards Institute, an entity responsible for facilitating the development
                of national radiation safety standards.

                Professional organizations conducted independent radiation studies that
                concluded that radiation levels emitted from backscatter units were below
                the acceptable limits. Specifically, to reach annual radiation dose limits, a
                passenger would have to receive more than approximately 17,000
                screenings in a 12-month period, which is equivalent to approximately 47
                screenings per day, 365 days per year. The Transportation Security
                Administration entered into interagency agreements for additional
                radiation safety surveys and dosimetry monitoring studies to document
                radiation dose to agency personnel and individuals undergoing screening.
                The results of each study concluded that the level of radiation emitted was
                below acceptable limits.

                We are making recommendations for the Transportation Security
                Administration to (1) ensure that radiation surveys are conducted on
                backscatter units for any incidents of unintended radiation emissions,
                (2) ensure that backscatter calibrations are consistently conducted and
                documented, (3) ensure that Transportation Security Officers complete
                annual radiation safety training, (4) verify that training requirements are
                completed, (5) determine the appropriate amount of on-the-job training for
                Transportation Security Officers who operate backscatter units, and
                (6) develop procedures to ensure appropriate notifications of unintended
                radiation emissions or overdoses.

                Transportation Security Administration’s Use of Backscatter Units

                                             Page 1
Background
                          The Transportation Security Administration (TSA), the primary agency
                          responsible for securing the Nation’s civil aviation enterprise, is
                          responsible for screening passengers at commercial airports throughout the
                          United States and its territories. Passenger screening is carried out by
                          Transportation Security Officers (TSOs) trained to perform screening
                          duties. In addition to TSOs at federal airports, nonfederal airports use
                          private contract screeners for passenger screening with TSA oversight.
                          Guidance from TSA’s screening policies and training requirements for
                          TSOs also applies to contract screeners at nonfederal airports.

                          TSA’s Passenger Screening Program manages security technology
                          processes for passenger screening at airport security checkpoints to
                          prevent the entry of dangerous and prohibited items on commercial
                          aircraft. Advanced Imaging Technology (AIT) equipment is used to
                          screen passengers for metallic and nonmetallic threats that include
                          weapons, explosives, and other prohibited objects concealed on
                          individuals entering secure areas of the airport. The general-use
                          backscatter unit shown in figure 1 is one type of AIT equipment used for
                          passenger screening.1

                          Figure 1. Backscatter Unit




                          Source: TSA.

                          Backscatter units are categorized as general-use systems—systems that
                          ensure a high degree of radiation safety based on the emission of
                          negligible doses of radiation and built-in engineering controls.

                          Unlike a traditional x-ray machine, which relies on the transmission of

1
 Millimeter wave technology is the other AIT used by TSA. It consists of non-ionizing electromagnetic waves that
generate images based on energy reflected from the body.

                         Transportation Security Administration’s Use of Backscatter Units

                                                      Page 2
x-rays through the object, general-use backscatter units detect the radiation
that reflects off the object and forms an image. The backscatter pattern is
dependent on the material property, which makes it suitable for imaging
organic material. General-use backscatter units rapidly scan an x-ray
beam over an individual’s body, electronically creating an image from
x-rays that scatter from the skin’s surface. The technology displays the
front and back images of the scanned individual, which a TSA image
operator analyzes to identify potential threats.

General-use backscatter technology using x-ray exposes the person being
scanned to negligible doses of ionizing radiation. When a person is
exposed to radiation, energy is deposited in the tissues of the body. The
amount of energy deposited per unit mass of human tissue is called the
absorbed dose. The effective dose of radiation is a measure of the
combined effects of radiation on various body tissues and organs.

A person’s biological risk—the risk of suffering health effects from
exposure to radiation—is measured in rems. A rem is a unit used to
describe how much radiation energy an individual receives. When the
amount of radiation being measured is less than 1 rem, prefixes are
attached to the unit of measure. Smaller radiation doses can be measured
in millirems (mrem), which is one thousandth (1/1,000) of a rem, and
microrem (µrem), which is one millionth (1/1,000,000) of a rem.

In the United States, an x-ray system is considered compliant with
requirements for general-purpose security screening of humans if it
complies with standards of the American National Standards Institute
(ANSI). ANSI facilitates the development of national standards by
accrediting the procedures of organizations that collaborate in developing
national consensus standards. ANSI and the Health Physics Society
(HPS), a scientific organization specializing in promoting excellence in
radiation safety, collaborated on the radiation safety standard ANSI/HPS
N43.17-2002, Radiation Safety for Personnel Security Screening Systems
Using X-Rays. This standard included requirements intended for self-
enclosed, full-body x-ray scanners that operated by scanning a person who
was standing still.

Several new x-ray scanning system designs and new use requirements
were developed after the publication of ANSI/HPS N43.17-2002, such as
systems that scan occupied vehicles and those that inspect casts and
prosthetic devices. As a result of these new designs, a revised standard
was published in November 2009, ANSI/HPS N43.17-2009, Radiation
Safety for Personnel Security Screening Systems Using X-Ray or Gamma
Radiation.



Transportation Security Administration’s Use of Backscatter Units

                             Page 3
TSA requires that general-use backscatter units approved for deployment
conform to ANSI/HPS N43.17-2009, which provides guidelines specific
to radiation safety in the design, performance, and operation of these
systems, and covers dose to subject, operational procedures, training for
operators, and other information. The standard includes requirements for
(1) general-use full-body scanning systems, such as backscatter units, that
scan individuals standing in a fixed position, and (2) the maximum amount
of radiation a passenger receives within a 12-month period.

The ANSI/HPS N43.17-2009 committee changed the way the dose limit is
stated from 10 microrem for one front scan to 25 microrem for a full
screening. ANSI/HPS N43.17-2009 retained the annual effective dose
limit of 25 mrem in a 12-month period for scanned individuals. By
comparison, 25 mrem is equal to the amount of background radiation
exposure from the air and soil at sea level every 1.5 hours. Table 1 lists
examples of radiation exposures and the associated doses:

Table 1. Examples of Radiation Exposure
           Source of Exposure           Dose in mrem
  Exposure to cosmic rays during a
  roundtrip airplane flight from                         3 mrem
  New York to Los Angeles
  One dental x ray                                       4–15 mrem
  One chest x ray                                        10 mrem
  One mammogram                                          70 mrem
  One year of exposure to natural radiation
                                                         300 mrem
  (from soil, cosmic rays, etc.)
Source: Centers for Disease Control and Prevention

According to Rapiscan, the manufacturer, the effective dose for one
screening from a backscatter unit is 5 microrem (0.005 mrem) or less.

Radiation surveys required by ANSI standards are conducted to determine
the x-ray emissions from general-use backscatter units. Independent, or
third-party, surveys of the general-use backscatter units are also performed
to measure these emissions and determine whether they comply with
ANSI standards and federal regulations. Third-party surveys are in
addition to the annual radiation surveys that maintenance providers perform.




Transportation Security Administration’s Use of Backscatter Units

                             Page 4
Results of Review 

        Independent Surveys Conducted Prior to Deployment Conclude That
        Backscatter Radiation Levels Are Below Established Limits
                 Prior to the deployment of general-use backscatter units in March 2010, TSA
                 entered into agreements with federal agencies and partnered with accredited
                 organizations to determine whether the level of radiation emitted by backscatter
                 units was within ANSI’s acceptable limits. Four radiation safety assessments
                 were performed on backscatter units prior to their deployment and use for
                 passenger scanning. The results of each study concluded that the level of
                 radiation emitted was below ANSI’s acceptable limits.2

                 The following sections provide the results of radiation assessments conducted on
                 the backscatter units.

                          Food and Drug Administration Radiation Safety Assessments

                          The Food and Drug Administration’s (FDA’s) Center for Devices and
                          Radiological Health (CDRH) is responsible for the oversight of radiation-
                          producing equipment. CDRH entered into an interagency agreement with
                          TSA in April 2006 to evaluate x-ray emissions from airport screening
                          equipment and estimate the effective dose of radiation to individuals being
                          scanned, AIT operators, and bystanders.3

                          In July 2006, CDRH determined the effective dose of radiation for
                          individuals scanned by Rapiscan’s Secure 1000 backscatter unit. Based
                          on the results of CDRH’s study, an adult would receive an effective dose
                          of about 2.4 microrem per scan, a child would receive an effective dose of
                          about 4 microrem per scan, and an infant would receive an effective dose
                          of about 5 microrem per scan. All test results concluded that the effective
                          dose of radiation for individuals scanned was below the ANSI standard of
                          10 microrem per scan.4

                          Rapiscan’s Third-Party Radiation Testing

                          TSA developed a Qualification Test and Evaluation of Whole Body
                          Imagers to support its procurement decisions prior to awarding the
                          backscatter contract. As the manufacturer of the backscatter unit,
                          Rapiscan submitted a Qualification Data Package, which included a
                          requirement that certification to the ANSI safety radiation levels be
                          performed by a third party, not the manufacturer.

2
  ANSI/HPS N43.17, Section 2.0.

3
  Task Order 001 of Interagency Agreement HSTS04-06-X-CTO003.

4
  Radiation Safety for Personnel Security Screening Systems Using X-rays (N43.17-2002), July 2002. 


                         Transportation Security Administration’s Use of Backscatter Units

                                                      Page 5
Rapiscan redesigned backscatter units from a dual-pose to a single-pose
configuration, allowing an individual’s front and back to be scanned in
succession. This modification required that the backscatter unit be
assessed for compliance with ANSI standards by a third-party tester.
Therefore, a radiation safety assessment of its newly configured
backscatter unit was included as part of the third-party testing.

In a June 2008 report, the third-party tester assessed radiation levels for
scanned individuals and backscatter operators. The report concluded that
the redesigned backscatter unit met ANSI standards of less than 10
microrem per scan. For the backscatter unit, the effective dose of
radiation for individuals per scan was 1.81 microrem, and the effective
dose for operators was approximately 0.68 microrem. Although the units
met ANSI safety standards, the third-party tester recommended that wing
shields be installed to further reduce radiation exposure levels for
backscatter operators.

National Institute of Standards and Technology

The National Institute of Standards and Technology’s (NIST) Office of
Law Enforcement Standards maintains expertise in developing electronic
instruments that detect contraband on an individual’s body or under
clothing. To support the research efforts of DHS’ Science and Technology
(S&T) Directorate, DHS has an interagency agreement with NIST to
provide reviews, audits, and technical support for TSA and S&T’s
Transportation Security Laboratory’s testing of enhanced metal detectors,
which includes backscatter units.

In July 2008, NIST assessed the backscatter unit’s radiation safety level
and its compliance with ANSI N43.17-2002. Based on a review of
Rapiscan’s third-party tester’s compliance reports, backscatter unit
specifications, and results from the FDA CDRH assessment of the original
backscatter configuration, NIST concluded that radiation levels for
scanned individuals were below ANSI limits. NIST also agreed with
Rapiscan’s third-party tester’s June 2008 recommendation to add wing
shields to further reduce backscatter operators’ exposure to radiation.

Rapiscan’s Third-Party Supplemental Report

Based on recommendations from the third-party tester and NIST, Rapiscan
modified the backscatter unit in August 2008 by attaching wing shields on
each side to minimize operators’ exposure to radiation. Because of the
ANSI requirement to test units after any update or modification, Rapiscan’s
third-party tester retested the modified backscatter unit to determine


Transportation Security Administration’s Use of Backscatter Units

                             Page 6
                        whether radiation exposures to operators were in compliance with ANSI
                        dose limitations after the addition of wing shields.

                        In October 2008, Rapiscan’s third-party tester provided a supplement to
                        the June 2008 report, which concluded that the operator dose was
                        approximately 0.02 microrem per scan, which is less than the 10 microrem
                        per scan limit established by ANSI/HPS N43-17-2002.

                        Johns Hopkins University Independent Assessment

                        The Johns Hopkins University Applied Physics Laboratory (JHU/APL)
                        provides technical support to TSA by evaluating x-ray systems used for
                        scanning vehicles and personnel. TSA requested that JHU/APL conduct
                        an independent radiation safety engineering assessment of the backscatter
                        unit to determine compliance with ANSI.5

                        JHU/APL conducted its assessment from July 27 through 29, 2009.
                        ANSI/HPS N43.17-2002 was in effect during this period. Under this
                        standard, the limit of the effective dose per scan was 10 microrem.
                        However, a revised standard, ANSI/HPS N43.17-2009, was pending
                        publication during the time of that assessment. This new ANSI/HPS
                        standard changed the effective dose from 10 microrem for one front scan
                        to 25 microrem for a full screening. JHU/APL applied both ANSI
                        standards as part of its assessment methodology.

                        In October 2009, JHU/APL released the results of both assessments.
                        When applying the requirements of the 2002 ANSI standard, the
                        assessment determined an individual effective dose per scan of
                        1.58 microrem. Therefore, an individual who receives fewer than 15,822
                        screenings in a 12-month period, which is equivalent to 43 screenings per
                        day, 365 days per year, will not reach the annual effective dose of
                        25 mrem. Using the 2009 standard, the assessment determined an
                        individual effective dose of 1.48 microrem per screening. An individual
                        effective dose is below the 25 mrem annual limit for individuals with
                        fewer than 16,891 screenings in a 12-month period, which is equivalent to
                        46 screenings per day, 365 days per year.

                        The background exposure reading was revised in an August 2010
                        JHU/APL report that changed the average effective dose per screening
                        from 1.48 microrem to 1.46 microrem, and the individual effective dose
                        from 16,901 to 17,123 screenings in a 12-month period. The 2009 and
                        2010 calculations were both below the annual limit.


5
 ANSI N43.17-2002 and ANSI/HPS N43.17-2009, Radiation Safety for Personnel Security Screening Systems
Using X-Ray or Gamma Radiation.

                       Transportation Security Administration’s Use of Backscatter Units

                                                    Page 7
           TSA Complied With ANSI Radiation Safety Survey Requirements
                    In addition to establishing radiation levels, the ANSI standard requires that
                    radiation safety surveys be conducted to verify the effective dose, radiation
                    leakage, inspection zone, and any other parameters specified by the manufacturer.6
                    To accomplish these objectives, radiation surveys are required (1) upon installation
                    of backscatter units; (2) every 12 months; (3) after any maintenance that affects
                    the radiation shielding, shutter mechanism, or x-ray production components; and
                    (4) after any incident that may have damaged the unit in such a way that
                    unintended radiation emission occurs. TSA has established procedures to ensure
                    that radiation safety surveys are conducted during specific intervals and when
                    circumstances dictate.

                             Radiation Safety Surveys at Installation

                             ANSI N43.17- 2009 requires that radiation safety surveys be performed
                             upon installation of backscatter units. These surveys, referred to as Site
                             Acceptance Tests (SATs), verify that backscatter units are installed and
                             configured properly and that radiation levels are compliant with ANSI
                             standards. The SAT Plans and Procedures lists each specification to be
                             verified and includes the reporting requirements for survey results.

                             Rapiscan field technicians conducted independent SATs on each
                             backscatter unit deployed to airports. As units were installed, the field
                             technicians recorded SAT results on Form R-0646-1, Secure 1000
                             Radiation Emission Measurement Survey, which was reviewed by
                             Rapiscan’s Radiation Safety Office (RSO) and provided to TSA
                             personnel.

                             In November 2010, TSA received a request from a news organization for
                             the results of radiation safety surveys conducted during the initial
                             installation of backscatter units that began in March 2010. In December
                             2010, TSA also received a congressional request to release the radiation
                             test results of its backscatter units in response to public concern over
                             possible increases in radiation levels. However, TSA asked Rapiscan to
                             review the survey results prior to any public release.

                             Rapiscan’s RSO reviewed the initial surveys for each backscatter unit and
                             identified miscalculations in determining radiation levels. Although all
                             backscatter units were in compliance with ANSI standards, Rapiscan
                             technicians conducting the initial surveys improperly calculated radiation
                             levels and documented results that exceeded the 25 microrem ANSI limit.
                             Other errors included excluding background radiation levels and using
                             incorrect scan times.

6
    The inspection zone is the entire area between the backscatter’s two scanning units, including the rubber mat.

                             Transportation Security Administration’s Use of Backscatter Units

                                                          Page 8
RSO employees concluded that the survey reporting form needed
clarification, and Rapiscan technicians required additional training on how
to complete the forms. Therefore, RSO personnel recommended revising
the survey form and providing refresher training for service technicians by
January 31, 2011.

In January 2011, TSA collaborated with Rapiscan to revise the survey
form and automate the mathematical formulas in order to electronically
calculate radiation levels. Rapiscan training records indicated that
technicians attended refresher training in February and March 2011.

In March 2011, Rapiscan resurveyed all 247 backscatter units deployed at
39 commercial airports to verify that radiation levels were within the
ANSI limit of 25 microrem per screening. The resurveys showed that
radiation levels for all backscatter units were below ANSI standards.
Even though the resurveys provided assurances that the radiation levels of
all backscatter units were below ANSI limits, TSA did not have a process
in place to consistently review and verify the accuracy of radiation safety
results. However, effective August 2011, TSA amended its Rapiscan
contract to include a process for reviewing the results of all radiation
safety surveys at multiple levels to ensure accuracy, completeness, and
compliance with ANSI standards.

The revised contract also requires updates on the status of radiation safety
surveys, including (1) radiation surveys performed to date, (2) corrected
radiation surveys to date, (3) number of radiation resurveys to date,
(4) status of trained and certified technicians for radiation surveys, and
(5) upcoming radiation surveys and resurveys.

Radiation Safety Surveys Every 12 Months

ANSI N43.17-2009 requires that radiation safety surveys be conducted at
least once every 12 months on x-ray personnel security screening systems.
The general-use backscatter units were deployed beginning March 2010,
with radiation safety surveys due each year after their respective
deployment date. Rapiscan’s resurvey of all backscatter units in March
2011 satisfied the ANSI requirement through March 2012.

TSA’s August 2011 amended contract with Rapiscan required biannual
radiation safety surveys on backscatter units for the first 2 years of
warranty coverage. Rapiscan created a database that maintains and tracks
its preventive maintenance and survey schedule. The database
automatically creates work orders for field technicians assigned to airports
to complete required annual and semi-annual surveys. Once a radiation
survey is completed, the database automatically generates a new work

Transportation Security Administration’s Use of Backscatter Units

                             Page 9
order, dated 6 months in advance, for the next required survey. The
amended contract also requires Rapiscan to conduct a final radiation
survey for each backscatter unit a month before the warranty expires.

The biannual radiation safety survey schedule established by TSA and
Rapiscan provides a mechanism for deployed backscatter units to be
surveyed twice within 12-month intervals. This schedule exceeds the
ANSI requirement for performing radiation surveys at least once every 12
months.

Radiation Safety Surveys After Maintenance

ANSI requires that radiation safety surveys be conducted on backscatter
units after any maintenance that affects the radiation shielding, shutter
mechanism, or x-ray production components. Since all backscatter units
are under warranty, Rapiscan, as the manufacturer, is responsible for
conducting the surveys.

In collaboration with TSA, Rapiscan developed a Maintenance Manual to
ensure that backscatter units comply with ANSI standards. The manual
contains instructions for performing corrective maintenance, and indicates
the type and frequency of preventive maintenance activities. Although the
manual is primarily used by Rapiscan’s contract technicians, it also directs
TSA personnel to periodically perform inspections of the backscatter’s
exterior to determine whether parts may be damaged, missing, or worn.

The maintenance manual describes the corrective and preventive
maintenance to be performed on backscatter units. Corrective maintenance
is an unscheduled activity performed to restore backscatter units to an
operating condition after a system failure. Preventive maintenance
consists of periodic scheduled checks to ensure that backscatter units
remain reliable and operate as intended. These maintenance activities are
conducted by qualified service providers at predetermined intervals.

A database is used to schedule preventive maintenance on backscatter
units every 6 months. After preventive maintenance is completed, the
database generates another work order for the next 6-month period.

TSA’s backscatter maintenance log showed that, from May 2010 to May
2011, 3,778 service calls were made in response to mechanical problems
with backscatter units. Of that number, 84, or 2%, resulted in radiation
safety surveys. The three most prevalent corrective actions taken to
resolve mechanical problems were replacing parts where no adjustments
to the units were required (680), rebooting or resetting the unit (566), and
replacing parts where adjustments or calibrations were required (528). We


Transportation Security Administration’s Use of Backscatter Units

                            Page 10
    did not identify any instances where a radiation survey should have been
    performed but was not.

    Radiation Safety Surveys After Unintended Emissions

    ANSI standards require that radiation safety surveys be conducted on
    backscatter units after any incident that may have damaged the system and
    caused unintended radiation emission. We did not identify any instances
    of unintended radiation emissions.

    According to TSA’s Occupational Safety and Health Manual, safety
    measures to ensure that unintended radiation emission does not occur
    include system controls such as interlocking doors, emergency on/off
    switches, warning labels, and standard operating procedure for the safe use
    of radiation screening systems.

    TSA’s Maintenance Manual directs all personnel responsible for
    maintaining backscatter units to provide TSA with a detailed written
    report of any actions by backscatter users or operators that could cause a
    radiation accident or unsafe event as soon as such an action is identified.
    Maintenance personnel are also required to respond to and investigate all
    reports of system malfunctions or failures and resolve problems before
    units are back in service.

    Rapiscan personnel stated that no contingency plans existed for unintended
    radiation emissions because safety features were built into backscatter
    units. Specifically, the failure of any subsystem results in non-operation
    of the x-ray generator to prevent accidental exposures. TSA personnel
    also said that a process to handle unintended radiation emissions has not
    been established since backscatter units were designed not to exceed the
    ANSI dose limit.

    During our fieldwork, we were not informed of any unintended radiation
    emissions, and we did not identify any reports or other documents that
    included information related to unintended radiation emissions. However,
    even with safety requirements that include fail-safe controls, TSA needs to
    ensure that radiation surveys are conducted after any incident that may
    damage the system and cause unintended radiation emissions.

Recommendation
    We recommend that the Assistant Administrator for Security and
    Technology, Transportation Security Administration:




    Transportation Security Administration’s Use of Backscatter Units

                                Page 11
            Recommendation #1: Develop a process to ensure that radiation surveys
            are conducted on general-use backscatter units after any incident that may
            have damaged the system and caused unintended radiation emissions.

     Management Comments and OIG Analysis
            We evaluated TSA’s written comments and made changes to the report
            where we deemed appropriate. A summary of TSA’s written responses to
            our recommendations and our analysis of the responses follow each
            recommendation. A copy of TSA’s response, in its entirety, appears in
            appendix B.

            TSA Response: TSA concurred with Recommendation 1.

            TSA’s current safety protocols require all equipment manufacturers to
            comply with nationally recognized safety standards to ensure both
            passenger and operator safety. Each backscatter unit undergoes a system
            inspection and radiation survey before leaving the manufacturer and after
            installation in the airport. Radiation surveys are also performed once
            every 6 months; whenever a unit is moved; after any maintenance action
            that affects radiation shielding, shutter mechanism, or x-ray production
            components; and after any incident that may have damaged the system.
            TSA partnered with Certified Health Physicists at the U.S. Army Public
            Health Command (Provisional) to conduct independent radiation surveys
            and inspections to confirm the regular testing performed by the equipment
            manufacturer.

            OIG Analysis: TSA’s response describes Rapiscan’s responsibility for
            compliance with federal safety standards relating to damaged backscatter
            units that may cause unintended radiation emission, and when radiation
            safety surveys should be conducted. Although there have been no
            instances of unintended radiation emissions, TSA’s oversight
            responsibilities should include a process to verify that protocols in place
            are followed in the event of such occurrences. Therefore, this
            recommendation is unresolved and open, pending our receipt and review
            of such a process.


Radiation Surveys and Studies Conducted After Deployment Conclude
That Levels Are Within Established Limits
     In 2010, TSA’s Office of Occupational Safety, Health and Environment (OSHE)
     and U.S. Army Public Health Command (USAPHC) extended an established
     interagency agreement to include USAPHC conducting radiation safety surveys
     of deployed backscatter units. The agreement also required USAPHC to provide


           Transportation Security Administration’s Use of Backscatter Units

                                       Page 12
                  radiation dosimetry monitoring studies to document the radiation exposure levels
                  of TSA personnel.7

                  USAPHC’s radiation safety surveys of backscatter units are not an ANSI
                  requirement, but supplement surveys conducted before and at the time of
                  installation. As part of OSHE’s radiation safety program, the surveys are
                  conducted to ensure that backscatter units are in compliance with the 25 microrem
                  per screening limit required by ANSI/HPS N43.17-2009. Radiation safety
                  surveys and dosimetry studies completed by USAPHC concluded that backscatter
                  units were in compliance with the ANSI limit.

                           USAPHC Radiation Safety Surveys

                           In April 2010, USAPHC began conducting radiation safety surveys on
                           backscatter units to determine the radiation dose to individuals being
                           screened, system operators, and bystanders. According to test results, all
                           machines surveyed emitted levels of radiation less than the 25 microrem
                           limit per screening. Specifically, the test results concluded that an
                           individual would have to be screened more than 5,000 times in a year to
                           exceed the annual effective dose limit. For system operators and
                           bystanders, the radiation level at the inspection zone would require an
                           individual to be present during 1,000,000 screenings in a year to reach the
                           annual effective dose limit.

                           USAPHC Dosimetry Studies

                           From January to Feburary 2011, USAPHC worked with OSHE to conduct
                           an area dosimetry study at TSA’s Transportation Systems Integration
                           Facility. This facility assesses various screening systems before and after
                           deployment at airports.8

                           A TSA official explained that USAPHC includes area dosimetry studies
                           during some of the radiation safety surveys. The official said that area
                           dosimetry studies are currently underway at five airports in which
                           dosimeters are mounted on various backscatter units. Data are analyzed
                           by USAPHC and OSHE and incorporated into a final report to OSHE.

                           During the study, dosimeters were placed in and around a backscatter unit
                           to determine potential radiation doses to TSOs conducting passenger
                           screenings and individuals in close proximity to backscatter units.
                           Preliminary study results showed that the potential radiation dose to
                           backscatter unit operators and individuals in close proximity to the units


7
  Dosimetry studies measure the potential radiation dose to individuals operating backscatter units as well as to 

personnel in the vicinity of the units during screening operations. 

8
  Area dosimetry studies measure radiation levels within the immediate area of backscatter units. 


                          Transportation Security Administration’s Use of Backscatter Units

                                                        Page 13
            was within the ANSI limit. As of August 2011, USAPHC had not
            submitted a final report to TSA on the dosimetry study.

            From April 2010 to August 2011, 145 of the 247 backscatter units
            deployed nationwide were surveyed. OSHE established a radiation survey
            schedule through August 2011 that included dates, locations, and
            durations of each survey. An OSHE official said that plans were
            underway to survey the remaining backscatter units during fiscal year
            2012; however, no specific timeframe for completion has been set.

            ANSI standards include a requirement for performing radiation surveys at
            least every 12 months. Studies performed by USAPHC could provide
            increased assurance that backscatter units are in compliance with ANSI
            limits if the interagency agreement included timeframes to survey all
            backscatter units within a 12-month period.

Backscatter Calibrations Have Not Been Performed Consistently
     Backscatter units must be calibrated to ensure appropriate image quality and
     operational safety. According to TSA’s March 2011 Screening Management
     Standard Operating Procedures, calibrations of backscatter units should be
     performed at defined intervals and under specified circumstances. The procedures
     provide detailed instructions for recording and maintaining the results of each
     calibration. However, there were inconsistencies in how TSA personnel adhered
     to policy requirements.

     During our fieldwork, TSA personnel at different airport locations described
     (1) various frequencies for conducting calibrations at their assigned checkpoint,
     (2) different scenarios that would require the results to be recorded, and (3) a
     range of methods for recording calibration results. We did not identify any
     improperly calibrated backscatter units that compromised operational safety.
     However, consistency in conducting calibrations and recording the results would
     provide additional assurance that appropriate safety measures are being enforced.

     Recommendation
            We recommend that the Assistant Administrator for Security and
            Technology, Transportation Security Administration:

            Recommendation #2: Develop controls to ensure that backscatter unit
            calibrations are conducted consistently and documented as required by
            established standard operating procedures.




           Transportation Security Administration’s Use of Backscatter Units

                                       Page 14
     Management Comments and OIG Analysis
            TSA Response: TSA concurred with Recommendation 2.

            The Screening Management Standard Operating Procedure, Section 3.2.,
            contains the requirements for the operation, testing, and maintenance of all
            backscatter and millimeter wave AIT screening equipment. This section
            also requires that a Supervisory Transportation Security Officer record the
            results of the daily calibration and image quality verification and that the
            test records must be maintained for at least 30 days at the checkpoint.
            After the 30 days, the records must be labeled and maintained for 1 year
            under the control of the Federal Security Director.

            OIG Analysis: TSA’s Screening Management Standard Operating
            Procedures describe how backscatter units should be calibrated and the
            results recorded. However, we found inconsistencies in the enforcement
            of these procedures. This recommendation is unresolved and open,
            pending our receipt and review of TSA’s measures to ensure uniform
            compliance with established procedures.


Not All Transportation Security Officers Have Completed Required
Radiation Safety Training
     ANSI standards require that personnel operating backscatter units receive
     adequate radiation safety training, followed by refresher training at least once
     every 12 months. To facilitate completion of this training, TSA has established a
     centralized online training system for use by TSOs. However, the online system
     has not been an efficient or effective means of providing radiation safety training
     or refresher training. As a result, not all TSOs have satisfied the online training
     requirement for radiation safety.

     ANSI standards require that personnel be trained in specific areas that include
     (1) defining radiation, (2) identifying exposure limits, radiation safety measures,
     and other safety hazards, (3) procedures to prevent unauthorized use or access to
     the system, and (4) emergency procedures.

     To satisfy ANSI standards, OSHE developed a radiation safety course as part of
     its Radiation Safety Program. All employees who could be exposed to radiation
     must complete the most current version of the radiation safety course within 6
     months of their initial employment date. In addition, TSOs must retake the most
     recent version of the radiation safety course every year to satisfy the annual
     refresher training requirement.

     TSA’s Online Learning Center (OLC) is a centralized system to support the
     delivery and management of all TSA learning and development programs. TSA
            Transportation Security Administration’s Use of Backscatter Units

                                        Page 15
policy requires TSOs to complete 2 hours of OLC training each week, including
the radiation safety course, to satisfy training requirements. In addition to the
online radiation safety training, OSHE officials said TSA promotes radiation
safety awareness through bulletins posted on its Intranet site and through the
OLC. TSA officials also described other activities, such as Safety Week, in
which radiation safety has been a topic of interest during training workshops.

During our fieldwork, several TSOs told us that they were unable to access and
complete OLC training because of time constraints associated with performing
their duties, or computer delays. They also said that this is why other information
concerning radiation safety is not read.

Providing TSOs with an appropriate level of training regarding radiation exposure
limits, hazards, and emergency procedures is essential to promote safety. Although
TSA provides various resources to inform its employees, it needs to ensure that
training resources are effective in satisfying TSO training requirements.

Recommendations
       We recommend that the Assistant Administrator for Security and
       Technology, Transportation Security Administration:

       Recommendation #3: Develop a process to ensure that TSOs satisfy
       ANSI requirements for radiation safety training.

       Recommendation #4: Develop a process to verify the completion of
       annual refresher training by TSOs operating backscatter units.


Management Comments and OIG Analysis
       TSA Response: TSA concurred with Recommendation 3.

       TSA has developed its training to meet ANSI safety requirements for
       radiation. All security officers are required to complete radiation safety
       awareness training on an annual basis. TSA records show that 98% of the
       security officers at airports with backscatter technology completed the
       training in fiscal year 2011; the other 2% are not actively screening.
       Employees’ training records are tracked through the TSA OLC.

       OIG Analysis: ANSI standards require that operators of backscatter units
       receive radiation safety training, followed by refresher training at least
       once every 12 months. TSA established its OLC to manage all TSA
       learning and development programs. TSA’s internal policy requires TSOs
       to complete 2 hours of OLC training weekly, including the radiation safety
       course, to satisfy training requirements. However, several actively

       Transportation Security Administration’s Use of Backscatter Units

                                   Page 16
            screening TSOs informed us that they were unable to access and complete
            OLC training due to time constraints associated with performing their
            duties or computer delays. The TSOs’ statements were supported by
            reconciling their names to a list of radiation-safety trained TSOs. This
            recommendation is unresolved and open, pending our receipt and review
            of TSA records showing completion of fiscal year 2011 radiation safety
            training by employees operating backscatter units.

            TSA Response: TSA concurred with Recommendation 4.

            At the local level, each individual’s learning plan contains the required
            trainings he or she must complete to remain a certified officer. Airport
            management routinely monitors the training plans of officers to ensure that
            training is completed by the required completion date. At the headquarters
            level, training requirements are incorporated into TSA’s Management
            Control Objective Plan. Although this reporting process does not break
            down completion compliance by individual courses, it alerts executive
            leadership when an airport’s staff is not completing required training.
            This can prompt leadership to generate reports showing which officers are
            delinquent and ensure that training is completed. Using both systems to
            validate completion of training is the process developed to verify
            completion of training for officers operating all equipment, including
            backscatter units.

            OIG Analysis: TSOs operating AIT equipment must take the most recent
            version of the radiation safety course each year to satisfy ANSI’s annual
            refresher training requirement. TSA’s response addresses all training
            requirements for TSOs; however, a process to verify whether TSOs
            operating backscatter units complete the annual radiation safety refresher
            training is not included. Without such a mechanism in place, TSA has no
            assurance that radiation safety training will be completed in a timely
            manner. Therefore, this recommendation is unresolved and open.


Additional On-the-Job Training for Transportation Security Officers
Should Be Considered
     To provide TSOs with the skills necessary to operate backscatter units, TSA
     developed an AIT training curriculum that includes classroom training and 8
     hours of on-the-job training (OJT). Based on information obtained during our
     field visits, the classroom portion of the AIT training is presented as outlined in
     the curriculum at all locations. However, there were variances among airports in
     the OJT provided to prepare TSOs to operate backscatter units without
     supervisory assistance.



            Transportation Security Administration’s Use of Backscatter Units

                                        Page 17
Four of the six airports we visited developed an OJT curriculum that included
more than the 8 hours of OJT required in the AIT curriculum. OJT at these
airports ranged from 20 to 38 hours. TSOs explained that the AIT classroom
curriculum requires understanding a vast amount of knowledge before operating
backscatter units, and additional OJT can improve TSOs’ competency.

Several TSOs working in airports that required additional OJT hours informed us
that they were more comfortable operating backscatter units without supervision
as a result of the extra training. Some TSOs who worked in airports that required
only the standard 8 hours of OJT said that additional hours would be beneficial
before they independently operated backscatter units. A number of TSOs who
worked in airports said that the 8 hours of required OJT were sufficient for them
to perform their duties effectively.

During our fieldwork, we did not identify TSOs who were not competent to
operate backscatter units. However, additional OJT requirements could provide
better assurance that TSOs receive training that fully prepares them to operate
backscatter units independently.

Recommendation
       We recommend that the Assistant Administrator for Security and
       Technology, Transportation Security Administration:

       Recommendation #5: Conduct an assessment to determine the
       appropriate amount of OJT training for TSOs operating general-use
       backscatter units.

Management Comments and OIG Analysis
       TSA Response: TSA concurred with Recommendation 5.

       TSA determined the minimum number of OJT hours required for
       backscatter units by considering input from subject matter experts,
       feedback from operational tests and evaluation, and the backscatter course
       content. This process is used to establish the minimum number of hours to
       become proficient. The OJT Monitor assesses each officer throughout the
       OJT process to ensure proficiency in operating the equipment prior to
       certifying the officer and releasing him or her from OJT. Officers who are
       not proficient after 8 hours continue with additional OJT until they
       achieve proficiency.

       OIG Analysis: TSA describes the initial process used to establish the
       minimum number of OJT hours TSOs require to become proficient in the
       operation of backscatter units. During our fieldwork, some TSOs
       explained that the 8 hours of OJT was adequate to become proficient in

      Transportation Security Administration’s Use of Backscatter Units

                                  Page 18
            operating backscatter units, while other TSOs said they would have been
            more comfortable if additional OJT hours were available. Most TSOs said
            the AIT classroom instructions covered an enormous amount of
            information and additional OJT could be beneficial.

            Although we did not find any TSOs who were not competent in the
            operation of backscatter units, the intent of this recommendation is for
            TSA to reassess the 8-hour minimum OJT to determine whether additional
            training should be required. This recommendation will remain
            unresolved and open, pending our receipt of the results of TSA’s updated
            assessment.


Accidental Radiation Overdoses Have Not Occurred
     FDA requires immediate notification from manufacturers upon discovery of any
     accidental radiation occurrence or an equipment safety defect. TSA’s amended
     contract with Rapiscan, dated August 2011, requires immediate notification to
     TSA and FDA of any accidental radiation emission. Specifically, the amended
     contract states that radiation safety surveys will be conducted according to the
     Federal Food, Drug and Cosmetic Act and related regulations requiring
     manufacturers to investigate and report any accidental radiation occurrence to
     TSA and FDA. However, TSA does not have procedures in place to verify such
     notifications from Rapiscan to FDA in the event of these occurrences.

     According to TSA and Rapiscan personnel, no accidental radiation overdoses of
     backscatter units have ever occurred. They explained that safety features in
     backscatter units make it impossible for scanned passengers or TSA employees to
     receive radiation doses that exceed ANSI standards, because the units immediately
     default to a shutdown mode when not operating properly.

     Our fieldwork did not identify any incidents or reports of accidental radiation
     emissions or overdoses. However, Rapiscan is required to notify FDA and TSA
     of any accidental radiation emissions. Therefore, a process to provide such
     notifications needs to be in place.

     Recommendation
            We recommend that the Assistant Administrator for Security and
            Technology, Transportation Security Administration:

            Recommendation #6: Develop procedures to ensure FDA is notified of
            any instances of accidental radiation emissions or overdoses.




           Transportation Security Administration’s Use of Backscatter Units

                                       Page 19
Management Comments and OIG Analysis
     TSA Response: TSA concurred with Recommendation 6.

     Under the provisions of the Federal Food, Drug, and Cosmetic Act, the
     manufacturer is required to investigate and report any accidental radiation
     occurrence to the FDA and immediately notify the FDA in the event that
     the manufacturer becomes aware of a defect. In addition, ANSI/HPS
     N43.17-2009 requires the manufacturer to establish and maintain records
     of any incidents involving unplanned exposures as reported by the user,
     and provide the information to the FDA.

     Once backscatter units are out of warranty and TSA becomes responsible
     for maintenance, the maintenance contractor is required to notify the
     contracting officer’s technical representative and local TSA if a system
     defect or accidental radiation occurrence is discovered. The maintenance
     contractor will also notify the manufacturer, who in turn will notify the
     FDA. Currently, TSA’s Director, Occupational Safety, Health, and
     Environment, “is responsible for coordinating investigations of radiation
     safety related system defects, damage, malfunctions, and violations of
     radiation safety procedures.” To help ensure that the FDA is notified,
     TSA will revise the statement to include additional language for notifying
     the product manufacturer and the FDA whenever any electronic product
     radiation safety issues meet the criteria of an accidental radiation
     occurrence or defect.

     OIG Analysis: TSA cites the authorities governing notification to FDA
     in the event of accidental radiation occurrences and describes the actions it
     will take for these type occurrences when backscatter units are no longer
     under warranty. However, TSA’s oversight responsibilities should include
     a process to verify that FDA has been properly notified in the event of
     accidental radiation occurrences, whether or not backscatter units are
     under warranty. This recommendation is unresolved and open, pending
     our receipt and review of procedures to confirm that FDA is notified of all
     instances of accidental radiation emissions or overdoses.




    Transportation Security Administration’s Use of Backscatter Units

                                Page 20
Appendix A
Purpose, Scope, and Methodology

                   We conducted this review in response to a request from Congressman
                   Edward J. Markey, U.S. House of Representatives. Our objective was to
                   assess the manner in which TSA inspects, maintains, and operates
                   backscatter units used in passenger scanning. Specifically, we were asked
                   to address (1) the effectiveness and reliability of inspection plans to
                   resolve issues concerning the operation of backscatter units, (2) the
                   efficiency of quality control plans to ensure compliance with the dose-per­
                   screening limit of 25 microrem, (3) how employees are trained to operate
                   backscatter units, (4) how accidental overdose information is shared with
                   federal agencies, passengers, or employees, and (5) TSA’s coordination
                   with other federal agencies with more subject matter expertise.

                   We conducted our fieldwork from February to June 2011 at six airports
                   that used backscatter units as the primary passenger scanning system.
                   These locations were Charlotte, North Carolina; Fort Lauderdale, Florida;
                   Seattle, Washington; San Diego, California; Los Angeles, California; and
                   Boston, Massachusetts.

                   We interviewed personnel from TSA, S&T, Rapiscan, and USAPHC. We
                   analyzed relevant documents and statistical data relating to backscatter
                   unit radiation safety surveys, quality control measures, TSA training
                   criteria, and coordination and information sharing between TSA and other
                   federal agencies concerning the safety of backscatter units. As part of our
                   analysis, we relied on radiation assessments previously conducted by
                   FDA, Rapiscan, NIST, JHU/APL, and a third-party tester.

                   To assess the effectiveness of TSA’s radiation safety programs, we
                   observed USACPH radiation safety surveys and occupational safety and
                   health inspections at Washington Dulles International Airport. We also
                   visited the TSA Transportation Security Integration Facility at Ronald
                   Reagan Washington National Airport, and the S&T Transportation
                   Security Laboratory, Atlantic City, New Jersey, to determine their role in
                   TSA’s radiation safety testing.

                   This review was conducted under the authority of the Inspector General
                   Act of 1978, as amended, and according to the Quality Standards for
                   Inspections and Evaluations issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                  Transportation Security Administration’s Use of Backscatter Units

                                              Page 21
Appendix B
Management Comments to the Draft Report



                                                                                   u.s, ncpu,mtnl 0' Homt ll nd Sec urity
                                                                                   601 South 12th Street
                                                                                   Afiington, VA ZQ59!1


                                                                                   Transportation
            DEC 1 9 2011                                                           Security
                                                                                   Administration

                                                  INFORMATION


        MEMORA DUM FOR:                          Carlton I. Mann
                                                 Assistant Inspector Gene ral
                                                 U.S. Department of Homeland Security (DHS)

                                                 John S. P i sto l~
                                                                             S, n
        FROM :
                                                 Administrator ~     l-         &.....-
                                                                                     ~~
                                                 Transportatio    curity AdminisLration

        SUBJECT:                                 Response to Draft Report , TransporlOlion Security
                                                 Administration's Use o/Bachcaller Unils, October 20 11


        Purpose:

        This memorandlml const itutes the Transportation Security Admi nis tration's (TSA's) response to
        the DHS Office of the Inspector General (DIG) draft repo rt, Transportation Securily
        Administration 's Use of Backscaller Units, dated October 2011,

        Background:

        In February 2011, DIG initiated a review ofTSA 's use of backscatter uni ts in response to a
        request from Congressman Edward 1. Markey, U,S, House of Representatives.

        During this review, DIG visited six airports that used backscatter units as th e primary passenger
        scanning system, and interviewed personnel from TSA, DHS Science and Technology (8&1 ),
        Rapiscan, and U.S. Army Public Health Command (USAPHC). OIG also analyzed relevant
        documents and statistical data relating to backscatter unit radiat ion safety surveys, quality control
        measures, TSA training criteria, and coordination and infonnation shari ng between TSA and
        other federal agencies co ncerning the safety of backscatter units.

        OIO's report concludes that TSA was in compliance with the standard regarding rad iation
        exposure limits and radiation safety requirements, and identified six recommendations for TSA.

        Discussion:

        TSA appreciates OIO"s work in planning and conducting its review and issuing thi s rcport. We
        believe the rcport fully endorses TSA"s extensive efforts to kee p the traveling public safe, which
        is our agency 's ultimate priority.




                       Transportation Security Administration’s Use of Backscatter Units 


                                                       Page 22

Appendix B
Management Comments to the Draft Report




         As a result of intense research. analysis. and testing. TSA concludes that potential hcaJth risks
         from a full-body screening with a general-use x-ray security system are miniscule. Several
         groups of recognized expens have analyzed the radiation safety issues associated with this
         technology and have found the systems to be well below the radiation dose limits. These ex pens
         have published recommendations. commentaries, technical reports, and an American national
         radiation safety standard as a result of their analyses.

         TSA has utilized Inter-Agency Agreements with the NationaJ Institute of Standard and
         Technology (NIST) and the U.S. Food and Drug Administration (FDA) to further validate third
         party radiation studies that all vendors must submit prior to testi ng. Additionally, the TSA
         Office of Occupational Safety, Health, and Environment is working with Certified Health
         Physicists from the U.S. Army Public HeaJ th Command to perform radiation safelY surveys of
         the deployed general-use backscatter x-ray advance imaging technologies.

         We have based our evaluation on scientific evid~nce and on the recommendations of recognized
         experts. As a resu lt of these evidence-based, responsible actions, we are confident that full-body
         x-ray security products and practices do not pose a significant risk to the public health.

         Conclusion:

         TSA has already implemented most of the recommendations contained in the report. Our
         specific response to each recommendation follows.




                       Transportation Security Administration’s Use of Backscatter Units 


                                                      Page 23

Appendix B
Management Comments to the Draft Report




                          Transportation Security Administration (TSA) Update to
                                  Office of Inspector General (OIG) 11-101 ,
                       Transportation S ecurity Administration 's Use of Backscatter Units
                                            December 2011 , Update

         Recommend ati on # 1: Develop a process to ensure that radiation surveys arc conducted on
         backscatter units after any incident that may have damaged the system and caused unintended
         radiation emissions.

         T SA Concurs : TSA agrees and has already implemented this recommendation. TSA's current
         safety protocols require all equ ipme nt manufacturers comply with nationally-recognized safety
         standards to ensure the safety of both passengers and operators. Each general-use backscatter x-
         ray Advance Imaging Technology (AIT) unit undergoes a system inspection and radiation survey
         before it leaves the manufacturing facility. The manufacturer must perform a radiation survey on
         each unit once it is install ed in the airport. Radiation surveys are also performed once every
          6 months; whenever a unit is moved; after any maintenance action that affects radiation
         shielding, shutter mechanism. or x-ray production components; and after any incident that may
         have damaged the system. TSA partnered with Certified Health Physicists at the U.S. Army
         Public Health Command (Provisional) to conduct independent radiation surveys and inspections
         to conHrm the regular testing performed by the equipment manufacturer.

         Recommendation #2: Develop controls to ensure that backscatter unit calibrations are
         conducted and documented as required by established standard operating procedures.

         TSA Concurs: TSA agrees and has already implemented the recommendation. The Screening
         Management Standard Operating Procedure. Section 3.2 .• contains the req uirements fo r the
         operation, testing, and maintenance of all backscatter and mi llimeter wave AIT screening
         equipment. This section also requires that a Supervisory Transportation Security Officer record
         the results of the daily calibration and image quality verification and the test records must be
         maintained for at least 30 days at the checkpoint. After the 30 days, the records must be labeled
         and maintained for I year under the control of the Federal Secu rity Di rector.

         Recommendation #3: Develop a process to ensure that Transportation Security Officers (TSO)
         satisfy ANS I requirements for radiation safety training.

         TSA Concurs: TSA agrees and has already implemented the recommendation. TSA has
         developed its training to meet American National Standards Institute (ANSI) safety requirements
         for radiation. All security officers are required to complete Radiation Safety Awareness training
         on an annual basis. Our records show that 98 percent of the security officers at airports with
         backscatter technology completed the training in fiscal year 2011 . Employees' training records
         are tracked through the TSA Online Learning Center; the other 2 percent are not actively
         screening.

         Recommendation #4: Develop a process to verify the completion of annual and refresher
         training by TSOs operati ng backscatter units.

         TSA Concurs: TSA agrees and has already implemented the recommendation. At the local
         level. each individual's learning plan contains the required trai nings he or she must complete to
         remain a certi fied officer. Airport management. to include supervisors and training managers,
         routinely monitor the training plans of officers to ensure training is completed by the requi red




                       Transportation Security Administration’s Use of Backscatter Units 


                                                      Page 24

Appendix B
Management Comments to the Draft Report



         completion date. At the Headquarters (HQ) level, training rcquircments are incorporated into
         TSA', Management Control Objective Plan, which is a summary report rolling up perfonnance
         data from each airport. Included in that plan is the compliance rate of the officers at each airport
         to complete required training by the mandated completion date. While this reporting process
         does not break down completion compliance by individual courses, it does alert executive
         leadership, both in the field and at HQ, when an airport's stalf is not completing required
         training, which can then prompt leadership to generate reports showing which officers are
         delinquent and ensure training is completed. Using both systems to validate completion of
         training is the process developed to verify completion of training for officer's operating all
         equipment to include backscatter units.

         Recommendation #5: Conduct an assessment to determine the appropriate amount of on-the-
         job-training (OJD training for TSOs operating backscatter units.

         TSA Concurs: TSA agrees and has already implemented the recommendation. TSA detennined
         the minimum number of OJT hours required for backscatter units by considering input from
         subj ~ t-matter experts, feedback from Operational Test and Evaluation, and the backscatter
         cours: content. This process is used to establish the minim um number of hours to become
         proficient. The OJT Monitor assesses each Omcer throughout the OJT process to ensure
         profidency in operating the equipment prior to certifying the Officer and releasing from OJT. If
         the Officer is not proficient after 8 hours, the officer continues with additional OJT until
         proficiency is achieved.

         Recommendation #6: Ensure that procedures are establi shed to notify FDA o f any instances of
         accidental radiation emissions or overdoses.

         TSA Concurs: The general-use backscatter x-ray system is classified as an electronic product
         and therefore, the FDA has regulatory authority over the manufac turer under the Electronic
         Product Radiation Co ntrol (EPRC) provisions of the Federal Food, Drug, and Cosmetic Act
         (FF DCA). Under this Act. the original equipment manufacturer (OEM) is required to investigate
         and repcrt any Accidental Radiation Occurrence (2 1 CFR 1002.20) to the FDA and immediately
         notify the FDA in the event they become aware of a defect (2 1 CFR 1003.10). In addit ion,
         ANS1IHPS N43 . I 7-2009, paragraph 7.6, Records To Be Maintained by Manllfact1lrers,
         subparagraph (h), requires the OEM to establish and maintain records of any incidents involving
         unplanned exposures as reported by the user, and provide the infonnation to the FDA.

         Once the system is out of warranty and TSA becomes responsible for maintenance, the
         maintenance contractor is required to notify the Contracting Officer Technical Representative
         and local TSA if a system defect or accidental radiation occurrence is discovered. The
         maintenance contractor will also notify the manufacturer. who in turn will notify the FDA.
         C urrently, Section 27.5(a)(l I) of the TSA Occupational Safety and Health Manual provides that
         the Director, OSHE, is responsible for "Coordinating investigations ofradiation safety-related
         system defects, damage, malfunctions. and violations of radiation safety procedures." To help
         ensure the FDA is notified, we will revise the statement to state: "Coordinating investigations of
         radiatiotl safety-related system defects, damage, malfunctions, and violations of radiation safety
         procedures. In addition, notifying the product manufacturer and the FDA whenever he/she
         becomes aware ofany electronic product radiation safety issues that meet the criteria ofan
         accidental radiation occurrence per 2 J CFR 1002.20 and/or a defect in an electronic product
         per 21 CFR 1003. 10. "




                       Transportation Security Administration’s Use of Backscatter Units 


                                                        Page 25

Appendix C
Major Contributors to this Report

                    Deborah Outten-Mills, Chief Inspector
                    Jacqueline Simms, Senior Inspector
                    Shawntae Hampton, Inspector
                    Megan Thompson, Inspector
                    Rahne Jones, Inspector




                   Transportation Security Administration’s Use of Backscatter Units

                                               Page 26
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator, Transportation Security Administration
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Transportation Security Administration’s Use of Backscatter Units 


                                                   Page 27

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
